December 2, 2020

VIA ELECTRONIC FILING

Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Cedar Point Nursery, et al. v. Hassid, et al., Case No. 20-107

Dear Clerk of the Court:
I represent Petitioners Cedar Point Nursery and Fowler Packing Co. in the abovereferenced matter.
In accordance with Rule 37.3(a) of the Rules of the Supreme Court of the United States,
Petitioners hereby grant blanket consent to the filing of amicus curiae briefs in this
matter.
Thank you.
Sincerely,

Joshua P. Thompson
Counsel of Record for Petitioners
cc: Mr. Joshua Patashnik, Counsel for Respondents
Josh.Patashnik@doj.ca.gov

